<html>
<title> - LEGISLATIVE HEARING ON S. 2800, AMERICA'S WATER INFRASTRUCTURE ACT OF 2018</title>
<body><pre>[Senate Hearing 115-304]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-304

 LEGISLATIVE HEARING ON S. 2800, AMERICA'S WATER INFRASTRUCTURE ACT OF 
                                  2018

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-136PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>              
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 9, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     6

                               WITNESSES

Riley, Pat, Advisory Committee Member, Family Farm Alliance......     8
    Prepared statement...........................................    11
    Response to an additional question from Senator Barrasso.....    26
Sternberg, Dennis, Executive Director, Arkansas Rural Water 
  Association....................................................    28
    Prepared statement...........................................    30
    Response to an additional question from Senator Barrasso.....    38
Swallow, Kristina, President, American Society of Civil Engineers    41
    Prepared statement...........................................    43
Bullock, Hon. Jeffrey, Secretary of State, State of Delaware.....    50
    Prepared statement...........................................    52
    Response to an additional question from Senator Barrasso.....    58
Pratt, Tony, President, American Shore and Beach Preservation 
  Association....................................................    59
    Prepared statement...........................................    61

                          ADDITIONAL MATERIAL

Letter to Senator Baldwin from Milwaukee Metropolitan Sewerage 
  District, January 29, 2018.....................................   105
Letter to Senator Baldwin from NEW Water, January 30, 2018.......   106

 
 LEGISLATIVE HEARING ON S. 2800, AMERICA'S WATER INFRASTRUCTURE ACT OF 
                                  2018

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Sullivan, Cardin, 
Whitehouse, Gillibrand, Booker, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    We are here to examine legislation titled America's Water 
Infrastructure Act of 2018. This is bipartisan legislation. 
This legislation is introduced along with Committee Ranking 
Member Carper, Transportation and Infrastructure Subcommittee 
Chairman Inhofe, and Subcommittee Ranking Member Cardin.
    The Senate Committee of the Environment and Public Works 
has jurisdiction over much of our Nation's water 
infrastructure, including locks and dams, inland waterways, 
irrigation and water systems, and ports. These infrastructure 
systems are critical to keeping America prosperous and safe 
from dangerous floods and contaminated water sources.
    This bipartisan legislation is a result of significant work 
in negotiations among the members of our Committee, and I want 
to thank each and every one of the members of the Committee for 
their efforts.
    The discussions are ongoing. We plan to add a bipartisan 
manager's amendment to the bill, when we mark it up later this 
month, in order to address a number of other outstanding 
issues.
    Water infrastructure is important to every region, to every 
State, to every tribe, and to every community in America. 
America's Water Infrastructure Act is going to support our 
Nation's economic competitiveness by increasing water storage, 
by deepening nationally significant ports, by addressing aging 
irrigation systems, and by maintaining the navigability of 
inland waterways across the country.
    In my home State of Wyoming and across the West, water 
storage capacity and supply are vital to local economies. 
Sediment build up behind dams severely limits water storage. 
Our bill is going to address this problem by directing the 
Bureau of Reclamation and the Army Corps of Engineers to 
develop sediment management plans for Federal reservoirs.
    America's Water Infrastructure Act will also expand our 
Nation's water storage capability by facilitating the 
permitting of additional reservoirs. For example, in Wyoming, 
the bill would approve the expansion of water storage at the 
Bureau of Reclamation's Fontenelle Reservoir in Lincoln County.
    Expanding water storage will give our farmers, ranchers, 
and communities a reliable supply of water in order to keep 
their livestock and their crops healthy. More water storage 
also provides an economic incentive for new businesses to grow 
and to create jobs throughout the Nation.
    America's Water Infrastructure Act will also fix 
deteriorating irrigation systems that are vital for growing 
crops and for raising livestock.
    The legislation isn't just important for rural America. 
Dredging nationally significant ports and maintaining our 
inland waterways will enhance our growing economy. Goods and 
raw materials need to move from the heartland to the coast for 
export. The bill is designed to maintain these vital arteries 
of commerce. It is good for big cities and for rural 
communities alike.
    This legislation is also about health and safety. It 
includes provisions to repair old drinking water and wastewater 
systems, protecting communities from contaminated water 
sources. The bill will make it easier for the Army Corps to 
take steps to keep communities safe from flooding. It will 
address maintenance needs of older dams and levees that protect 
communities from dangerous floodwaters.
    Finally, this bill will create an addition to the benefit-
cost ratio framework. The addition will give local stakeholders 
a greater role in prioritizing Army Corps projects. Under this 
new provision, more projects are likely to be built in small 
rural and inland States.
    America's Water Infrastructure Act is going to authorize or 
reauthorize important water infrastructure programs and 
projects that benefit all 50 States, so I urge my colleagues to 
work with me in a bipartisan way to pass this important 
legislation so we can create American jobs and promote our 
Nation's prosperity, health, and safety.
    With that, I would like to turn to the Ranking Member and 
cosponsor of the legislation, Senator Carper, for his 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    As my colleagues know, I take the train most days down to 
Washington from Delaware. Almost every day somebody on the 
platform, waiting to catch the train, will come up to me and 
say I wouldn't have your job for all the tea in China; you must 
hate your job. I really don't at all. I feel lucky to be here. 
I feel lucky to serve with the men and women around us on this 
Committee and in the Senate.
    I wouldn't want to spike the football too early, but this 
is a day to celebrate. This is a victory, I think, in 
introducing this legislation, for bipartisanship, for fiscal 
responsibility. This is a victory for environmental soundness. 
It is good for the economy and embraces the idea of using some 
common sense, so I think we can be proud of this.
    My colleagues hear me from time to time quote Lincoln. What 
is the role of government? The role of the government is to do 
for the people what they cannot do for themselves. Think about 
that.
    One of the major roles of government is to create a 
nurturing environment for job creation and job preservation, 
along with a lot of other stakeholders. We try to do that, and 
I think successfully with this legislation.
    So, my thanks to our colleagues on my left here, Senator 
Cardin, my thanks to Jim Inhofe and your staff, certainly to 
our Chairman for working with us and with our colleagues on 
this Committee and off the Committee to address America's water 
infrastructure needs.
    Our bill, titled ``America's Water Infrastructure Act,'' is 
an important piece of legislation, given that the authorization 
law under which the Corps of Engineers currently operates 
expires come December. I am proud of the bipartisan work we 
have done together on this legislation. We are stronger 
together, and I hope that it will serve as a model for work 
that we on this Committee, along with others, can do in the 
future, this year and beyond.
    Before I comment on the bill, I just want to thank all the 
witnesses for joining us today. I especially want to thank Jeff 
Bullock, who is our Secretary of State for the State of 
Delaware, who previously worked with me when I was a 
Congressman and with my chief of staff as Governor, and for a 
little bit as chief of staff for my first year in the U.S. 
Senate.
    Sitting right behind in the audience is Jonathan Jones, who 
worked as part of our team, who was my chief of staff. Two of 
my chiefs of staff here, former chiefs of staff here.
    People ask me why I have had some success. I always 
surround myself with people smarter than me, and these are a 
couple of them, and we are delighted that they are here.
    I want to welcome back Tony Pratt, who is the President of 
the American Shore and Beach Preservation Association. He has 
been here before. He is a senior member of our Department of 
Environmental Protection in Delaware Natural Resources and 
Environmental Protection, and we thank Tony for joining us, and 
all of our other witnesses, too.
    Coastal issues are extremely important to everybody in the 
room, but especially to the lowest lying State in our country, 
that would be Delaware, and the water resources bill is 
critical to our State's economy as it is to many other States.
    Delaware's economic reliance on the Corps' work is not 
unique. I was astounded by this fact, but over 90 percent of 
U.S. overseas trade volume--over 90 percent of U.S. overseas 
trade volume--moves through coastal channels that the Corps 
maintains. Think about that. Over 90 percent of U.S. overseas 
trade volume moves through coastal channels that the Corps 
maintains. They have an incredible job, incredible 
responsibility for all of us.
    The Corps inland waterways and locks form a freight 
network. Think of it almost as a water highway that provides 
access to international markets through our ports. They also 
serve as critical infrastructure for the U.S. military.
    Our bill authorizes investments in this system in multiple 
ways, multiple ways. Most notably, it positions the Corps to be 
an active partner with ports, with communities, with States, 
with tribes, and other stakeholders in growing and expanding 
our Nation's economy.
    A reinvestment in this partnership is much needed. For the 
better part of a decade now, the executive branch has 
calculated water project costs and benefits in a way that has 
led to a backlog of unfunded and uncompleted--but needed--
projects. Our bill works to address this problem by authorizing 
new funding and project planning requirements at the Corps' 
most local level, including individual Corps districts.
    This legislation requires local participation in the 
development of new district plans, too, and hopefully this 
participation will allow for a more transparent and long-term 
look at the Corps' activities and serve to build a better and 
bigger groundswell of support for increased appropriations for 
the agency's initiatives down the line.
    Our legislation also invests nationally in both coasts and 
inland waterways. I am particularly proud of a provision that 
will support the selection of natural infrastructure 
alternatives as a practical solution in situations where and 
when the development of gray or more traditional infrastructure 
alone may not work.
    The Corps of Engineers also works to reduce risk to human 
safety and property damage from flooding. Flooding alone 
currently costs the United States billions of dollars annually.
    As the 2017 hurricane season illustrated, our Nation needs 
to be ready for the next extreme storm or flood event, because 
it is coming. Earlier this year, NOAA, the National Oceanic and 
Atmospheric Administration, announced that the total cost for 
extreme weather and climate events in 2017--get this--exceeded 
$300 billion, a new annual record in the U.S. It is clearly not 
a matter of if the next extreme weather event is coming; it is 
a matter of when.
    Our bill allows the Secretary of the Army to waive the cost 
share for hazard mitigation related feasibility studies so that 
we can be shovel ready before the next storm hits. 
Additionally, the bill modifies the Corps' existing emergency 
authorities to allow the agency to participate in storm damage 
recovery for a longer period of time, make more resilient 
infrastructure decisions, and where appropriate, cost share 
infrastructure replacements so resources can go further.
    The American Society of Civil Engineers Infrastructure 
Report Card gives our country's dams, our levees, our inland 
waterways a D, as in dog, as in decrepit. It gives our 
country's dams, levees, and inland waterways a D, representing 
an overall cumulative investment backlog of nearly $140 billion 
in an authorized but unconstructed portfolio of $60 billion.
    The bill reauthorizes the Corps' dam safety programs and 
makes needed changes as proposed by civil engineers.
    Clearly, we have a lot of important work to do to move this 
bill across the goal line. However, if we continue to work, as 
we have, in a bipartisan fashion, I think we will get the bill 
done, and our country will be better for it.
    Mr. Chairman, thank you again for your leadership on this 
bill and for your staff's hard work.
    I also want to thank our partners. I want to thank Senator 
Inhofe, who has worked in these vineyards before; Senator 
Cardin, as well, and your staffs for being a part of this 
process.
    I just want to briefly recognize the staff members who are 
among those who worked very hard on this bill. They include 
Brian, Andy, Pauline, Lizzy, Craig, May, Jennie. In addition, I 
want to thank Christina Baysinger, Skylar Bayer, and John Kane 
of our own staff on the minority side. All of our staff has 
spent countless hours working together through provisions that 
matter not just for Wyoming, not just for Delaware, but for our 
Nation as a whole.
    Again, we welcome our witnesses. We look forward to hearing 
from each of you this morning to make this very good piece of 
legislation even better in the weeks to come.
    Thank you so much.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    I would like to now recognize the Chairman of the 
Subcommittee on Transportation and Infrastructure, Senator 
Inhofe, if you have some comments you would like to share with 
us.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Well, I do. I do. I would introduce the 
staff people like Senator Carper did, except they are all over 
at the EPA, so they are not here today.
    Anyway, I thank you and the Ranking Member, Senator Cardin, 
for having this thing. I can remember the years that I chaired 
this Committee. We had gone through a number of years where we 
were supposed to do this, and everyone knows this, we were 
supposed to do it every 2 years. We had some periods of 4 or 6, 
and one 8-year period where we didn't do it. We got back on 
schedule, and I applaud the leadership of this Committee for 
continuing that.
    Now, in all the people who are here today, it is important 
that we keep it up, we keep it going, and we do it in the 
proper way. It is one of the few things that really works well 
in Government, is the way we do the WRDA bills.
    In Oklahoma, our State DOT has an 8-year plan which is 
updated yearly and is publicly available. Now, everybody knows, 
there are no secrets in this thing. They know what we are 
planning to do, they know well in advance. They participate in 
it.
    The budget reforms in this bill will provide an ongoing 5-
year window of certainty and transparency, and allow for more 
input from stakeholders when creating priorities within the 
Corps' districts and headquarters.
    The bill will also help our communities in building out 
their water and wastewater systems and assist them in complying 
with the many Federal mandates that are creating so many 
problems for so many people.
    The growing communities in my State of Oklahoma, like 
Bartlesville, will be able to contract for additional water 
storage without breaking the bank. We have clarified language 
so that the stakeholders along the McClelland-Kerr Arkansas 
navigation system.
    Everyone in this room knows because you are all experts, 
but out in the real world, how many people know that we are 
navigable in the State of Oklahoma or in Arkansas? As we go 
through, I remember 100 years ago, when I was in the State 
Senate, someone came to me from the World War II Submarine 
Veterans Association, and they said, we'd like to demonstrate 
what we can do in Oklahoma. We are going to take a World War II 
submarine all the way from the Gulf of Mexico up through 
Arkansas to Oklahoma to the Port of Muskogee.
    They said it couldn't be done. All my adversaries were 
saying we are going to sink Inhofe with his submarine. All 
these things were going. But we actually did get all the way up 
there, and it was a great experience, so we are on the map.
    With entrepreneurs in Oklahoma like Grant Humphries--I was 
down at his operation not too long ago. I can remember when the 
Corps didn't provide any kind of help in recreational activity. 
They are doing it now, and we are doing it successfully.
    I know that no bill is perfect, and I know there are some 
concerns related to the Hopper dredge, and we are working on 
language, working closely with those who have a personal 
interest in that. We want to be sure that, if the private 
sector has areas where availability is not there, a compromise 
can be reached to try to accommodate those needs.
    So, I look forward to continue to work with my colleagues 
to improve this bill. This will be one of the major pieces of 
legislation that we can all be proud of.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    I would now like to recognize the Ranking Member of the 
Subcommittee on Transportation and Infrastructure, Senator 
Cardin, if you have comments you would like to share with us.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, Senator Barrasso, I want to join with 
Senator Carper and Senator Inhofe in congratulating you for 
bringing this bill to the Committee's attention in the best 
traditions of our Committee. I agree we should be doing these 
reauthorizations every 2 years in order to make sure that the 
authorizations are contemporary with need. It is our 
Committee's responsibility to do it, and you are carrying that 
out in the best traditions. It is certainly bipartisan, and it 
is focused on clean, safe water for our Nation, advancing water 
infrastructure for both public health and our economy, and 
doing it in a fiscally responsible way, so I am proud to be 
part of this effort.
    For our Nation, let me just mention three bills that I 
worked on with other members of this Committee in the U.S. 
Senate that parts are incorporated into this America's Water 
Infrastructure Act. I am pleased that a good part of S. 1137, 
the Clean, Safe, Reliable Water Infrastructure Act, is 
included. Senator Boozman has been one of the leaders on that, 
Senator Inhofe and Senator Duckworth, an important bill that 
deals with drinking water and wastewater infrastructure in our 
country.
    Parts of S. 692, the Water Infrastructure Flexibility Act, 
Senator Fischer was very much engaged in that Act, along with 
Senator Brown, that deals with the affordability, which is 
important to all parts of our country, but particularly to my 
State, in Baltimore, it is a major issue and deals with 
integrated planning of our water infrastructure.
    And then S. 451, the Water Resources Research Amendments, 
again by Senator Boozman, that we worked on for additional 
research into the effectiveness and efficiency of new and 
existing water treatment works.
    So, there is a lot of important work that is being done for 
national strategies dealing with modernizing our water 
infrastructure.
    I am proud of the impact this will have on the State of 
Maryland. I know that members of this Committee may be getting 
a little bit tired of my mentioning the Chesapeake Bay. I know 
that Senator Carper is not, and Senator Van Hollen is not, but 
others may. But the Chesapeake Bay, obviously, is a matter of 
major concern. Maryland is a coastal State, and this bill will 
help us deal with our coastal issues of the Chesapeake Bay and 
certainly the needs of the Port of Baltimore. We have other 
ports; we have a port in Salisbury, making sure that our 
channels are kept dredged at the right levels.
    I say that because this bill will deal with Poplar Island 
and Mid-Bay Island ecosystem restoration projects, and I really 
want to underscore this, because, when I first came to the U.S. 
Congress, the location of sites where we could put dredge 
material was extremely controversial, extremely controversial. 
Hart-Miller Island is famous for congressional races based 
around the future whether we could find sites to put dredge 
materials.
    That is no longer the case in our region thanks to Poplar 
Island, which not only serves as a location for dredge 
material, but is an ecosystem restoration project. Just 
recently I had the opportunity to take the leadership of the 
Army Corps to the site to take a look at it, and it is a model 
site for what we should be doing in reclaiming lands that were 
once there. This was once a habitable island that had gotten 
down to about five acres. It is now being restored to thousands 
of acres, and it is thriving as an environmental site.
    The next location will be Mid-Bay, and this legislation 
provides for the continuity of the locations for dredge sites 
in Maryland in the Chesapeake Bay for keeping our channels to 
the depths that are needed, because that is critically 
important to our economy and the ports.
    There is a provision in this bill that deals with the 
Anacostia River to complete the feasibility study. That is 
important.
    Last, Mr. Chairman, I want to mention the point you 
mentioned, and that is the cost-benefit analysis dealing with 
smaller facilities. We have, in Maryland, numerous sites that 
are critically important to get Army Corps work to deal with 
recreational and tourism issues, and your leadership here will 
make it more likely we can get those projects on schedule to 
get the work that they need.
    I am proud to be part of this effort.
    Senator Barrasso. Thank you, Senator Cardin.
    I would like to now ask Senator Boozman if he would like to 
introduce one of our guests.
    Senator Boozman. Thank you, Mr. Chairman.
    I just want to take a second to give a special thanks to 
Dennis Sternberg being here today. Mr. Sternberg has spent 
almost 40 years in water and wastewater industry in Arkansas, 
hailing from Greenbrier, Arkansas. Twenty-nine of those years 
were spent working in almost all field positions, as a field 
rep, EPA program manager, USDA circuit rider, and wastewater 
technician trainer.
    He and his Arkansas Rural Water Association staff are truly 
committed to the future of rural communities by assisting 
utilities throughout the State with the many challenges rural 
and small utilities continue to face.
    He holds the highest water and wastewater licenses in 
Arkansas: Class 4 water distribution and Class 4 water 
treatment and Class 4 wastewater license in Arkansas.
    In 2006 Mr. Sternberg received the Executive Director of 
the Year Award from National Rural Association, and in 2009 the 
United States Department of Agriculture and National Rural 
Water Association recognized Dennis for leadership in emergency 
response preparation.
    Mr. Sternberg, we truly do appreciate you being here and 
appreciate you bringing your knowledge of so many years, so 
much experience to the Committee today.
    Senator Barrasso. Thank you very much, Senator Boozman.
    Well, we have a wonderful panel here to join us today.
    Pat Riley is here, the Advisory Committee Member from the 
Family Farm Alliance; Mr. Sternberg, who has just been 
recognized, is the Executive Director of the Arkansas Rural 
Water Association; Kristina Swallow, thank you for joining us, 
the President of the American Society of Civil Engineers; and 
then, of course, Jeff Bullock, Secretary of State from 
Delaware.
    I understand when you started working for him you had hair. 
That's what I hear.
    [Laughter.]
    Senator Barrasso. And Tony Pratt, President of the American 
Shore and Beach Preservation Association.
    I want to remind our witnesses your full written testimony 
will be made part of the official record today. If you could 
please keep your statements to 5 minutes so we may have 
additional time for questions.
    I look forward to hearing your testimony, beginning with 
Mr. Riley.
    Please proceed. Welcome.

                    STATEMENT OF PAT RILEY, 
        ADVISORY COMMITTEE MEMBER, FAMILY FARM ALLIANCE

    Mr. Riley. Thank you, Senator Barrasso, Senator Carper, and 
members of the Committee. I am new to this, so bear with me.
    My name is Pat Riley. I live near Roundup, Montana, which 
is in central Montana, the Missouri Breaks country. I am a 
farmer-rancher and also a consultant throughout the State that 
works with farmers and ranchers to deal with water rights and 
water resource issues.
    I previously served as a manager of the Rivers Adjudication 
in northeast and southeast Montana, which entailed working on 
the Upper Missouri and the Yellowstone River Basin for a number 
of issues.
    Prior to that I managed Montana's Irrigation Development 
Sustainment Program and worked with a lot of Indian tribes, up 
`til 2014, where I moved back into the private area.
    I am here to represent the Family Farm Alliance and bring 
perspective for the Upper Missouri and Yellowstone River 
Basins, where I live and I work. The Alliance has provided 
extensive testimony, written testimony, and I am only going to 
address a couple of different issues. Although I do have an 
interest in many other issues; it is just, with 5 minutes, I 
picked three of those.
    The first section that I wanted to talk about was Section 
1024. This deals with the watercraft inspections on the Upper 
Missouri and the Columbia Basin in regard to the aquatic 
invasive species issue. Just in the last 2 years in Montana we 
have had two Bureau of Rec projects where, in fact, the zebra 
mussels, some sign of the zebra mussels has hit our State, and 
we are in panic mode, and inspections are taking place in 
Montana, and we are actually formulating that. This will 
definitely help us to try to preserve our waters, even though 
the Eurasian milfoil has been in our State for a number of 
years, and we are trying to deal with that.
    Section 3306 and 3403, these are the sections about the 
reservoir sediment problems that we see day to day in our State 
and throughout the United States. Siltation is a chronic 
problem throughout the West. I have looked at reservoirs from 
BIA, any Federal projects to State projects to local projects, 
and many of the reservoirs are 70 to 100 years old.
    There are some of the reservoirs that I work with that are 
50 percent full of silt right now. Well, if you think of that 
from my perspective as a farmer and rancher, this means that 
when I had 20 inches of water to use on my crop, now I have 10. 
I can't raise the crops I need to raise with 10 inches of 
water. So, this is a huge issue, siltation, from the farming 
side. Flood control is also a huge issue.
    The biggest reservoir area is an Army Corps project, the 
Fort Peck Reservoir project. It is 19,200,000 acres feet of 
water. It is the upper of the three big reservoirs on the 
Missouri River. Well, if you assume that say it was 25 percent 
full of silt, which is 1930s vintage, that would be a likely 
scenario. We are talking about 5 million acre-foot that is used 
for flood control and irrigation and those sorts of things. 
That is a huge chunk, and it is only growing each and every 
day. I run into it all the time; we see it out on smaller 
projects where that has dramatically increased. And when you 
have silts of that level, your evaporation goes up because 
water becomes shallower.
    The final section that I want to talk about is the tribal, 
one that is very near and dear to me, Sections 3807 and 3808. 
These are the tribal water right projects. I work solely on 
Indian water right projects in our State. We have seven 
reservations and thousands of acres of irrigation in BIA 
projects. Most of the BIA projects, I have to admit, are in 
woeful state. If I was to compare the Bureau of Rec projects in 
our State, they are probably 30 percent worse than the Bureau 
of Rec projects, who we all know have 100 years of 
infrastructure that has been sitting there and falling apart. 
We need to deal with this. On the tribal projects, there are 
some that I would call almost non-functional.
    I know that was just a brief of the things that I reviewed, 
but I felt like I needed to take as little time as possible, 
and I would like any questions that you would like to provide 
me later on. Thank you.
    [The prepared statement of Mr. Riley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. Riley.
    Mr. Sternberg.

  STATEMENT OF DENNIS STERNBERG, EXECUTIVE DIRECTOR, ARKANSAS 
                    RURAL WATER ASSOCIATION

    Mr. Sternberg. Thank you.
    Good morning, Chairman Barrasso, Senator Boozman, and 
members of the Committee. It is an honor to be here, and we are 
grateful that you have included the voice of rural America in 
this hearing.
    Thank you, Senator Boozman, for consistently listening to 
and helping rural Arkansas, including holding the first hearing 
on Senator Wicker and Senator Heitkamp's technical assistance 
bill, which is contained in today's legislation. And thank you, 
as well, for sponsoring the SRF WIN with Senator Booker.
    Rural and small town USA depends on this Committee to 
ensure that the interests of rural communities are contained in 
Federal legislation. The Great Compromise of 1787 that allows 
for proportional representation of States, including very rural 
States, in Federal policy is alive and well in this Committee 
and in your legislation. Thank you for that, Senators Barrasso, 
Carper, Inhofe, and Cardin. Rural America is very appreciative 
for the very helpful and beneficial provisions in your water 
legislation, America's Water Infrastructure Act of 2018, and we 
urge its passage and enactment.
    My name is Dennis Sternberg, and I am the Executive 
Director of Arkansas Rural Water Association, a non-profit 
association of small and rural community water and wastewater 
utilities in Arkansas. But I also am here representing the 
National Rural Water Association, which has over 31,000 member 
community utilities.
    We are very appreciative that your legislation includes 
numerous drinking water and clean water provisions that make 
the America's Water Infrastructure Act a comprehensive water 
legislative package. I would like to focus my comments on the 
important and beneficial provisions under Title 5.
    Section 5004, Technical Assistance. Approximately 80 
percent of the country's 14,500 wastewater utilities serve 
populations fewer than 10,000. As you know, small and rural 
communities have a much more challenging time complying with 
Federal Clean Water Act permits and operating complex 
wastewater systems due to the lack of technical resources in 
small communities. This legislation provides a solution to the 
lack of technical resources in small communities by providing 
technical experts, as we call them, Circuit Riders, in each 
State to be shared by small and rural communities. For these 
Circuit Riders to be effective and helpful, they must be able 
to directly travel to any given community to work specifically 
to solve any of the specific problems.
    Section 5010, the Water Workforce Investment. We welcome 
this new Federal attention and emphasized mission for water 
work force development. Like me, when I first started working, 
not every young person entering the work force necessarily has 
the option to go to college. A college degree is of value, but 
it is not required. A true apprenticeship model would be a 
welcome enterprise for the water worker universe. In any given 
day, water workers may be operating heavy equipment to repair 
broken lines, working with toxic chemicals, welding, conducting 
tests, operating process controls, complying with Federal 
rules, managing construction, and the list goes on.
    Section 5011, Sense of Congress Relating to the State 
Revolving Funds. Thank you for supporting the funding for the 
SRFs. They are essential in funding water infrastructure and 
projects to comply with the Federal rules, especially the small 
and rural communities in our State and the country that have 
more difficulty affording service due to lack of population 
density.
    Section 5012, the GAO Study on WIFIA Projects. We hope the 
GAO will review the WIFIA program considering it does not 
require any economic needs based targeting, credit elsewhere 
means testing, or focus on compliance. Small and rural 
communities support Senator Boozman and Senator Booker's SRF 
WIN Act, which improves WIFIA by authorizing an opportunity for 
States to direct some portion of the WIFIA funding to be used 
by each State's SRFs.
    Section 5006, Water Infrastructure Flexibility. We support 
the legislation for improving the current affordability 
analysis used by EPA to make compliance reasonable on 
ratepayers, especially in economically disadvantaged 
populations. Under the Safe Drinking Water Act, EPA adopted a 
policy that families can afford annual water rates of 2.5 
percent of the median household income, which adversely impacts 
rural communities that have higher percentages of people living 
in poverty and the lower MHI.
    This Committee is very important to rural and small town 
America, and we are grateful for the opportunity to testify 
today for the attention and consideration you have provided in 
crafting this most recent legislation.
    Thank you very much.
    [The prepared statement of Mr. Sternberg follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Mr. Sternberg.
    Ms. Swallow, thanks so much for being with us today. 
Welcome.

                STATEMENT OF KRISTINA SWALLOW, 
         PRESIDENT, AMERICAN SOCIETY OF CIVIL ENGINEERS

    Ms. Swallow. Thank you. Chairman Barrasso, Ranking Member 
Carper, and members of the Committee; thank you for inviting me 
here today to testify on the importance on a long-term, 
strategic investment in our Nation's water resources.
    I am Kristina Swallow. I am a licensed professional 
engineer, and I am the President of the American Society of 
Civil Engineers, a professional engineering society 
representing over 150,000 members.
    It is wonderful to be back here in Washington, DC, where I 
previously served for 3 years as an AAAS fellow and legislative 
aide to Senator Tom Udall.
    Many of you are familiar with ASCE's Infrastructure Report 
Card that we release every 4 years. ASCE's 2017 Report Card 
gave our Nation's infrastructure a grade of D+ and determined 
that there is an investment gap of $2 trillion over the next 10 
years. Our Failure to Act Economic Study found that our 
Nation's deteriorating infrastructure and growing investment 
deficit hurts our Nation's economy. Failing to invest by 2025 
carries enormous economic costs, to the tune of nearly $4 
trillion in lost GDP and 2.5 million jobs lost in 2025 alone. 
It also costs every single family in our Nation $3,400 a year 
in disposable income.
    WRDA bills are critically important to the health of our 
Nation's water resources, which in turn play a crucial role in 
the Nation's economy, public safety, and the preservation of 
our environmental resources. Our levees, dams, inland 
waterways, and ports protect hundreds of communities, support 
millions of American jobs, and generate trillions of dollars of 
economic activity.
    As you are well aware, many of these infrastructure assets 
have reached or exceeded the end of their design life and need 
to be repaired and modernized. Two programs that ASCE has long 
championed are the National Dam Safety Program and the National 
Levee Safety Program. Both are crucial components of risk 
reduction and protect communities, critical infrastructure, and 
trillions of dollars of property.
    The National Dam Safety Program was reauthorized in WRRDA 
2014 and has helped inventory nearly 90,000 dams across the 
country, assessing their condition and providing training and 
tools to dam safety programs.
    The National Levee Safety Program, enacted in WRRDA 2014, 
has helped to create an inventory of our Nation's levees. We 
now know the location and condition of nearly 30,000 miles of 
levees. However, there is much work to be done to further 
inventory the thousands of miles of levees not yet in the data 
base.
    We are pleased that America's Water Infrastructure Act of 
2018, or WRDA 2018, includes a reauthorization of both 
programs.
    ASCE is also supportive of alternative financing mechanisms 
for water resources projects, including the WIFIA program, 
which can be utilized by the Corps for a variety of water 
resources projects. We are pleased that this bill includes 
reauthorization of WIFIA and we encourage the Corps to continue 
their implementation of the program.
    ASCE championed Section 5014 of WRRDA 2014, authorizing the 
Corps to enter agreements with non-Federal interests to finance 
construction of at least 15 water resources development 
projects. We were pleased that President Trump's infrastructure 
proposal included provisions to remove barriers to 
implementation of this program. We urge the Committee to follow 
in the Administration's lead by authorizing a user fee 
collection and retention under this Corps pilot program.
    Finally, we ask the Committee to include the SRF WIN Act in 
WRDA 2018. This legislation offers an innovative new tool to 
leverage limited Federal resources and stimulate additional 
investment in our Nation's infrastructure, while safeguarding 
against any cuts to the existing State revolving funds and 
WIFIA programs.
    In conclusion, ASCE believes our Nation must prioritize 
investment in our water resources infrastructure systems. 
Strategic, robust, and sustained investments through long-term, 
reliable Federal funding, as well as through the utilization of 
alternative financing mechanisms must be made quickly if we 
hope to close the growing gap and restore America's world class 
infrastructure.
    I thank you for holding this hearing. ASCE looks forward to 
working with you and the members of the Committee to find 
solutions to our Nation's water resources investment needs, and 
I look forward to taking your questions later.
    [The prepared statement of Ms. Swallow follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so much for your testimony.
    Mr. Bullock, welcome back to the Committee. Look forward to 
hearing from you. Thank you, Mr. Secretary.

              STATEMENT OF HON. JEFFREY BULLOCK, 
             SECRETARY OF STATE, STATE OF DELAWARE

    Mr. Bullock. Thank you, Mr. Chairman, to my Governor, Tom 
Carper, to members of the Committee, for the privilege of 
appearing before you today and offering some brief remarks 
about the America's Water Infrastructure Act of 2018 and the 
importance of this legislation not just to my State and the 
Mid-Atlantic region, but to our Nation as a whole.
    I am Jeff Bullock. I am the Secretary of State of the State 
of Delaware, but today I am here as the Chairman of the Diamond 
State Port Corporation. The Diamond State Corporation is a 
corporate entity of the State of Delaware. It was established 
in 1923, and it owns and operates the Port of Wilmington.
    Our port, like many ports in America, touches the lives of 
millions of Americans every day. The banana you had for 
breakfast this morning came through the Port of Wilmington 
probably Monday or Tuesday of last week, and 3 weeks ago was 
growing on a tree somewhere in Central America. The grapes you 
enjoyed this winter were from Chile; also came through the Port 
of Wilmington. Those little clementines that we love to eat 
around the holidays, came from Morocco, also through our port.
    Now, Senator Carper knows we are in the process of a 
planned expansion at the Port of Wilmington to provide more 
capacity for our existing customers and for future businesses, 
and that is one of the reasons that this bill is so important 
to us as we move forward.
    Just let me say that over the last couple of years I have 
had the opportunity to visit a number of ports both in the 
United States and around the world, and perhaps more 
importantly, to talk to any number of port experts 
internationally, and I can tell you for certain that many of 
our ports, including my own in Wilmington, are falling behind 
and not able to keep pace with our competition.
    Maintaining marine infrastructure such as public ports is 
essential to our Nation's economic future. Delaware and the 
Corps of Engineers have long enjoyed a great relationship for 
as long as I can remember and as long as I have been involved 
in the port, which goes back to the Carper administration, 
almost 25 years now, but the importance of the Corps as we move 
forward with this expansion is even more essential.
    The reasons for that are pretty clear: we are in the midst 
of a rapidly changing global marketplace, and ensuring the 
Corps is running efficiently is more critical now than perhaps 
ever before. Ports are strong partners with the Corps of 
Engineers to ensure that we can meet the trading needs of our 
country and the needs of the flow of commerce and keep that 
moving forward.
    But ports are also under an increasing amount of 
competitive pressure. Shippers are demanding greater efficiency 
and lower costs. Increased velocity, the rate at which our 
goods move through ports and arrive at their final destination, 
is now the measure of our success.
    WRDA is an opportunity to look at process improvements, as 
well as make transformational changes in how our Nation 
provides resources to our seaports. Our regional ports also 
work closely with the American Association of Port Authorities 
and support the recommended changes and core processes that 
will make navigational projects move more efficiently and 
support stronger partnerships.
    The amount of freight that is going to move through U.S. 
ports is going to continue to increase significantly. Our own 
Port of Wilmington has seen growth of 150 percent just in the 
last 8 years. I want to applaud the work of the Chairman and 
the Ranking Member on the provision included in this 
legislation which highlights transparency and accountability in 
cost sharing for water resource projects.
    The foundation to building a project or conducting a 
feasibility study should always be done in good faith, and with 
the provisions set forth in Section 1004, local communities and 
States are now able to see the balance sheets of their 
respective projects. Furthermore, any unused moneys from a 
project that comes in under budget will be credited back to the 
non-Federal sponsor. For States and local communities like 
mine, who continue to work under tight budgets year after year, 
this is a big win.
    Another provision in the bill that we strongly support is 
Section 1012, Extended Community Assistance to Disadvantaged 
Communities. Properly identifying and understanding the 
disadvantaged community greatly improves efforts to engage with 
those community members.
    In closing, let me say the U.S. Army Corps of Engineers is 
a valued partner in managing States' waters and beaches through 
navigation, environmental restoration, flood control, and other 
projects. Without this legislation, the partnership that so 
many of us count on around the country as vital to our economic 
growth will be stymied.
    And as for ports, I would remind us all of these things: 23 
million American jobs are supported by U.S. seaports; $6 
billion of goods are handled through seaports each and every 
workday; $312 billion a year in tax revenue is generated by 
port activity; and $4.6 trillion of economic activity is 
related to our seaports annually. Very clearly, our ports are a 
central part of our country's economic future.
    Thank you again for having me today. I look forward to any 
questions you might have.
    [The prepared statement of Mr. Bullock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks so much, Mr. Bullock.
    Mr. Pratt, welcome to the Committee. We look forward to 
hearing from you.

              STATEMENT OF TONY PRATT, PRESIDENT, 
       AMERICAN SHORE AND BEACH PRESERVATION ASSOCIATION

    Mr. Pratt. Good morning. I want to, first of all, start by 
thanking the Chairman and Ranking Member for the leadership in 
bringing this bill forward, as well as the Subcommittee 
leadership in bringing this bill forward. It is very important 
we keep on a biennial track.
    I am the President of the American Shore and Beach 
Preservation Association, an organization founded in 1926 that 
is intended to help care for the Nation's coastlines and 
beaches through science and technology.
    We want to start today by saying how happy we are looking 
at the 5-year budget plan that has been proposed. It is, to me, 
very reflective of the fact that when earmarks, members' 
requests, were eliminated a number of years ago from a user 
standpoint, non-Federal partner user standpoint, many of the 
transparencies that we enjoyed in that process of having open 
discussions was lost. We find ourselves in a world of a mystery 
kind of black box, where the Congress is appropriating funds 
for Corp of Engineers work, we wait by the sidelines in years 
of continuing resolution into the mid-spring to find out what 
work we are going to be seeing coming forward, and we are then, 
at that time, able to come up with our matching funds and the 
Corps has to conduct contractual work in a short period of 
time. The 5-year budget plan opens this process up to a better 
dialogue and a better vision for the future, and we look 
forward to working with the Corps and you all with that.
    I like the fact of the bill's incorporation of the 
Integrated Water Resources Management, which is a modernization 
step that will help improve services delivery to the Nation. 
Looking to align authorities, improve opportunities for 
information sharing, and supporting complementary and 
integrated solutions to water resources challenges among 
partners and stakeholders is a valuable step forward for the 
Corps and its partners and project beneficiaries.
    The required guidance to ensure that the 5-year budget and 
work plans take into consideration a full array of Corp 
business lines to maximize the return on the Federal investment 
is supported. This helps put natural infrastructure investments 
on par with gray infrastructure investments.
    As I have stated in testimony to this Committee previously, 
water and coastal infrastructure, just like manmade 
infrastructure, is about assets that society depends on, and 
most particularly, it is about U.S. jobs. Creating jobs and 
protecting jobs that are blue collar jobs, as well as white 
collar jobs, these are American jobs that cannot be outsourced. 
Service industry at the coast is alive and well and abundantly 
serves the Nation's economy. Investment in natural 
infrastructure through multi-business line investment secures 
that economic return for generations to come.
    Another issue that has been a challenge in the past is how 
well informed the conversation on Federal water resource 
investment has been. Our observation has been that the benefit-
cost analysis has not well served that purpose; it does not 
consider the return of Federal investment very well at all. 
Whereas, the total cost of projects are accounted for, there 
are many national benefits that are not included. This is a 
disservice to the Nation, we believe.
    We strongly advocate for a more informed BC process that 
informs appropriators on the full return of national benefits 
on the investment made. The 5-year budget plan and the 
integrated water resources approach are a major step forward in 
realizing this goal. We again thank you for your inclusion of 
these and look forward to future discussions with you on 
approving the benefits calculations. We are also very happy to 
see the call for the GAO study that will examine the possible 
BC calculation reforms. This is a wise course of action and 
very much needed.
    By the fact that the EPW Committee remains committed to a 
biennial Water Resources Development Act, the Corps' Civil 
Works budget remains on a forward looking track, and each 
subsequent WRDA provides opportunity to continue to build 
improvements and modernization of the Corps' Civil Works 
mission.
    ASBPA is also appreciative of the inclusion of the Great 
Lakes Coastal Resiliency Study. Combined with the North 
Atlantic Study, the South Atlantic Study, and Gulf Coast 
studies that have gone on, we are perching our Nation very much 
in a better position to have a resilient coastline when future 
storms occur. This is an objective we strongly support.
    Finally, the National Academy's study is endorsed. This 
study will take a broad view of the way in which the Nation's 
water resources development projects are delivered. The NAS 
study should take into consideration how the Administration 
views the Corps' mission and supports it through budget and 
policy.
    We strongly support an overview of how the Corps currently 
operates and if there are improvements that could be made to 
get projects completed as quickly and efficiently as possible, 
should they be identified and pursued. ASBPA offers our 
assistance in any way you may find our expertise and experience 
with coastal water resources protection projects helpful in 
accomplishing your stated goals.
    I want to thank you for the opportunity to talk with you 
today and look forward to any questions you may have.
    [The prepared statement of Mr. Pratt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you so much, Mr. Pratt. 
Thanks to all of you for your testimony.
    We have a diverse group of stakeholders who have already 
provided letters and statements of support for America's Water 
Infrastructure Act of 2018. They include the Family Farm 
Alliance, the U.S. Conference of Mayors, the National League of 
Cities, the National Association of Counties, the American 
Society of Civil Engineers, the National Rural Water 
Association, the American Water Works Association, the 
Association of Metropolitan Water Agencies, the National 
Association of Clean Water Agencies, and the Portland Cement 
Association.
    I ask unanimous consent to submit all of these letters and 
statements in support of the bipartisan legislation for the 
record.
    Without objection, it is done.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Let me start with a question.
    Mr. Riley, if I could ask you, please. Developing adequate 
water supply for future uses in States like Wyoming, Montana, 
can be difficult because of the regulatory permitting process. 
We have talked about this. It can also be challenging when the 
Corps disagrees with a State about the purpose and the need of 
proposed water storage or to adhere to unexpected permit 
conditions that come with the permit. These roadblocks often 
happen later in the permitting process, upending projects after 
significant time and resources have already been spent by the 
State.
    Can you explain how future economic growth is impacted in 
States like Wyoming and Montana when adequate water supply 
storage is blocked by cumbersome Federal red tape, and can you 
explain how this bill will help address this important issue?
    Mr. Riley. Senator Barrasso, members of the Committee, 
usually, when these red tape and these processes are blocked, 
we have already spent millions of dollars of State and private 
money to get to that stage. It is kind of like running into a 
roadblock when the Army Corps puts their foot down, because the 
only option for us at that point is to come back to you 
gentlemen, and that becomes very difficult when you live a 2-
days' flight from Washington, DC.
    In the proposal--sorry about the section, I don't 
remember--about having the Committee or the group set up, it 
gives us a second chance to lay out our facts, because 
oftentimes the perspective of the man making the initial 
decision, this allows us to have people in the room that 
understand what we are talking about. It gives us a second 
chance. Not that we will always get there, but if you kill that 
momentum--I have been in many projects--when you kill it, you 
kill it, and it is hard to get back. I know of some storage 
projects we have done in our State that got killed, and they 
are done.
    Senator Barrasso. Following up, we know that adequate and 
affordable water supply is critical to farmers and ranchers in 
Wyoming, Montana. Our reservoirs across the West to Midwest 
have lost significant water storage capacity due to sediment 
build up. This legislation we are discussing today increases 
water supply in existing reservoirs by developing sediment 
management plans for these reservoirs through the use of 
partnerships between the Corps and the U.S. Bureau of 
Reclamation.
    If we restore these reservoirs' capacity by removing this 
excess sediment, what will be the impact for family farmers 
across the West and Midwest?
    Mr. Riley. Senator Barrasso, members of the Committee, I 
can address that from a personal note. I actually farmed in the 
Milk River Valley, which is a Bureau of Rec project, and our 
upper reservoir is about 65 percent full of silt. That stores 
half of our water supply. So, if I can put that in real terms, 
that $200 hay, which is kind of where we talk, that costs me 
about $300, $350 an acre.
    As a young farmer early in my career, it almost took me out 
of the business. You can't manage on that; you can't bank on 
that. That is what that storage really means, in a nutshell, to 
the farmer. It could be his malt barley crop or his beet crop, 
also.
    Senator Barrasso. Thank you.
    Ms. Swallow, this legislation authorizes several Corps 
projects for construction and encourages expedited completion 
of several projects that are already underway. Each of these 
projects serves an important purpose, such as providing for 
navigation, for flood risk management, for hurricane and storm 
damage, risk reduction, ecosystem restoration. You have seen 
the list.
    Can you further elaborate on why ongoing and future Corps 
projects are so critical when it comes to maintaining America's 
economic viability, including job creation, economic growth, 
and our global competitiveness?
    Ms. Swallow. Thank you for that question, Chairman 
Barrasso. The Corps maintains a network of 25,000 miles of 
inland waterways, 239 locks, and over 13,000 miles of levees. 
All of these assets help move our goods out to other parts of 
the country, as well as our international markets, they protect 
our communities, and they provide access to clean drinking 
water and other benefits to our communities.
    Unfortunately, we have not been funding the Corps as 
needed. These facilities are not just decades old, some of them 
are a century old; and while they were designed with the best 
information we had at the time, they are no longer meeting 
their needs, they are beyond their design life, and they 
weren't designed for the traffic they are seeing today. It is 
critically important for our economy and for our communities 
that we continue to invest in the Corps; and not just invest, 
but increase that investment to really meet their needs.
    Senator Barrasso. Senator Carper.
    Thank you all.
    Senator Carper. Mr. Chairman, I am happy to yield to 
colleagues.
    If any of you have time constraints, I am happy to yield. I 
am not in a hurry to get out.
    Senator Inhofe. I am good. I will wait for you. I don't 
want to miss what you are saying.
    [Laughter.]
    Senator Carper. Liar, liar, pants on fire.
    [Laughter.]
    Senator Carper. All right; John, do you want to go first?
    Senator Inhofe. Whoever doesn't want to hear.
    [Laughter.]
    Senator Barrasso. Well, I have some questions for Mr. 
Sternberg.
    Senator Boozman. Thank you all so much for holding this 
very important hearing.
    Before I get started, I would like to take a second to 
offer a group of support letters for the SRF WIN Act that we 
have been talking about and some of you all have mentioned in 
your testimony. This includes the National Rural Water 
Association, the Council of Infrastructure Financing 
Authorities, the American Society of Engineers, the Associated 
General Contractors of America, the American Council of 
Engineering Companies, the National Association of Clean Water 
Agencies, Ducks Unlimited, the American Public Works 
Association, the Rural Community Assistance Partnership, the 
Water Systems Council, the International Union of Operating 
Engineers, the Vinyl Institute, the Hydraulic Institute, 
California Association of Sanitation Agencies, Orange County 
Water District.
    I would also like to take a second and thank the EPA Office 
of Water, the Council of Infrastructure Financing Authorities, 
American Water Works Association, Water Environment Federation, 
and the Association of Metropolitan Water Agencies for 
providing us technical assistance to ensure that we preserve 
the WIFIA and SRF programs for years to come.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boozman. Mr. Sternberg, let me ask you. The SRF has 
a great track record of handling SRF funding to address vitally 
important water issues, wastewater projects in the State for 
years. Rural States like Arkansas, though, have limited access 
to funding. Across the country, SRFs have thoroughly vetted 
projects from small, medium, and large communities that are 
waiting to be funded.
    Can you please explain what the additional funding created 
by another tool in the toolbox, like SRF WIN, what would that 
mean for water infrastructure in rural America?
    Mr. Sternberg. Thank you, Senator Boozman. That is a great 
question. Let me just say Arkansas Natural Resources Commission 
is the agency in Arkansas that handles the SRF for the Safe 
Drinking Water Act and the Clean Water Act, and they have done 
an excellent job, but there is still a need. With this bill, 
you know, you have the SRF WIN in it, and that will allow the 
WIFIA program to be much more helpful to some of the rural 
communities such as we have in Arkansas, which is a very rural 
State, and many of your States are rural.
    But not only rural communities. We think it will steer the 
WIFIA to look at the communities with the greatest economic 
need and communities that each State thinks is the priority, 
and giving the State the priority that handles SRF to say this 
project needs to be funded. It also allows for that low 
interest rate to come through with the WIFIA funding. It will 
be an excellent partnership with the SRFs, and it will be 
excellent to the utilities across the State of Arkansas and 
many States across the Nation.
    Senator Boozman. Ms. Swallow, we certainly appreciate your 
leadership and the great job that your organization does in 
constantly pushing us in the right direction and really 
describing the situation that we are in regarding 
infrastructure.
    Can you tell us a little bit about the growing shortfall in 
infrastructure funding in the country?
    Ms. Swallow. We could talk for days about that, Senator 
Boozman. So, when we start talking about the investment gap 
needed for our infrastructure systems, you can look at drinking 
water alone and recognize that we waste billions of gallons of 
water everyday through leaky pipes. That equates to trillions 
of gallons a year. And we don't have a single drop of water to 
waste, really, especially in the western portions of our 
country.
    We have a growing funding gap. Currently, it is estimated, 
in the next 20 years, almost three-quarters of a trillion 
dollars, $750 billion is the funding gap on our water and 
wastewater needs alone. We have to find a way to invest in this 
infrastructure.
    Senator Boozman. So, we are all doing the best we can. We 
are working away, but the current situation is not near as good 
as we would like, so something like an SRF WIN type of 
financing, how would that affect things?
    Ms. Swallow. First, I want to thank you for your 
sponsorship of the SRF WIN Act. It is----
    Senator Boozman. Myself and Senator Booker.
    Ms. Swallow. Yes, thank you, and Senator Booker.
    It is just one more tool in our toolbox that will help our 
local communities fund the infrastructure that they need to 
serve their communities' needs. It is intended to take the best 
parts of the State Revolving Funds and the WIFIA program and 
provide that access to our local communities where the State 
infrastructure financing authorities can implement the program. 
It provides additional flexibility; it doesn't further tax the 
EPA with another program where the State infrastructure 
financing authorities are already administering our State 
Revolving Funds.
    So, it is a great tool. It will leverage the limited 
Federal funding $1 up to $50 in additional funding. It will be 
just one more tool that our local agencies can use.
    Senator Boozman. Good. Thank you very much.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Ms. Swallow, if I could follow up on some of this. As you 
know, our inland waterways are critically important for moving 
our abundant agricultural products to ports located along our 
coasts. As the only triple landlocked State in the Nation, 
Nebraska and our ag producers rely on efficient river barge 
traffic and a functional inland waterway network to supply our 
overseas customers with our high quality products.
    As you note in your testimony, there is great need for 
investments in maintenance and repair of these inland 
waterways. Also in your testimony you emphasize the benefits of 
WIFIA loans authorized by the Army Corps and the benefits that 
they could supply to this network.
    Can you elaborate on how the WIFIA loans could be applied 
for inland waterway projects?
    Ms. Swallow. WIFIA loans are, again, just one more tool 
that we have; it is an alternative financing mechanism where we 
can leverage the limited Federal investment $1 up to $50 of 
additional private and alternate funding sources.
    When we have insufficient funding, we have to be able to 
use all the tools that we have in our toolbox, and that is just 
another way that we can do it. The WIFIA program has just 
recently been started by the Army Corps, and we are excited to 
hear that, and we are looking forward to their continued 
implementation of it.
    Senator Fischer. Do you believe that private-public 
partnerships are feasible when looking at inland waterways? Do 
you think that there will be private enterprises step forward 
to be able to access that funding?
    Ms. Swallow. As long as there is a way to offset and for 
them to see a revenue source, they are a great way to improve 
our network. As you mentioned, so many of our products go 
through that inland waterway system, so I do see that as a 
solution.
    Senator Fischer. Thank you.
    Mr. Sternberg, I thank you for once again testifying before 
our Committee. Given your career working with wastewater 
infrastructure, I am sure you are familiar with unfunded 
Federal mandates, specifically those communities facing 
expensive Clean Water Act compliance requirements related to 
stormwater and wastewater projects.
    In my home State of Nebraska, the city of Omaha was hit 
with a $2 billion unfunded Federal mandate from the EPA to 
update its combined sewer overflow system. I was pleased to see 
my Water Infrastructure Flexibility Act included as Section 
5006 in the bill before us, and I thank you, Mr. Chairman, for 
that.
    The purpose of this section is to allow communities facing 
expensive stormwater and wastewater infrastructure updates to 
have greater flexibility to achieve compliance under the Clean 
Water Act.
    Mr. Sternberg, can you please discuss your experiences with 
communities that are forced to comply with expensive Federal 
mandates, and will this section of the bill help alleviate some 
of the financial and structural burdens these communities are 
facing?
    Mr. Sternberg. Thank you, Senator. My experience in 
Arkansas, where there are about 700 community water systems, 
and then we have about 350-some wastewater systems--Arkansas, 
as Nebraska, is a rural State. The majority of all systems in 
the Nation, 14,500, serve less than 10,000. So, when you start 
passing regulations from EPA down to comply with the same level 
as a large city such as Omaha, it is harder because you don't 
have the customer base to spread that cost across the board. It 
is very hard financially on the system, the customers of the 
system, but it has to be paid for some way or another.
    That is why a grant-loan ratio. That is why we think, also, 
there needs to be more technical assistance put in for Circuit 
Riders. That is what we do; we go out there and work with these 
small systems and larger systems with our equipment. We do the 
INI studies on their collection system. There is no need in 
building a brand new plant if you can fix the INI. It is kind 
of like Ms. Swallow mentioned, the water loss that you have on 
leaks on water systems. You know, let's identify the problems 
and fix them; don't build another well or another treatment 
plant because you have more leaks. It is the same way on the 
wastewater side. You know, let's be reasonable. Let's look at 
it. That is where the engineers do an excellent job identifying 
the problems on your utility to try to come in compliance. But 
we have always argued that unfunded mandates, EPA states that 
you need to do this, but they don't fund it.
    We have had the same problem with the EPA on our technical 
assistance funding. Back in 2012 it was put out through EPA, no 
more earmarks, so in 2012 they had to go out and go through the 
process of bidding out all the technical assistance. Well, 
there were several different pieces of legislation that was 
introduced to make EPA streamlined and do it with the utilities 
that is deemed the most benefit, whatever nonprofit is most 
beneficial to them. They haven't done that. EPA has not done 
that, and members on this Committee have wrote letters to EPA 
in regard to that, about, you know, you need to go back to this 
rule and do it this way, but they haven't done it, and we have 
letters to back up, letters that Senators sent and EPA 
responded back.
    Senator Fischer. We have seen a huge increase on these 
bills to the people in the city of Omaha, so I am hopeful that 
the flexibility provided in this bill is going to help 
alleviate some of that hardship they are facing.
    Mr. Sternberg. I think it definitely will.
    Senator Fischer. Thank you.
    Mr. Sternberg. Thank you.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Let me open my 
time by thanking you and the Ranking Member for the 
constructive way in which this Committee is proceeding on WRDA 
legislation. We often find ourselves at odds on certain issues, 
but I applaud the way in which the Committee works in 
bipartisan fashion on the water resources, and I want to 
particularly recognize the both of you.
    Ms. Swallow, one of the things that we see is that the 
march of progress and innovation brings new materials to the 
fore, innovative materials, often composite materials. What is 
your read on how well the Army Corps engineering manuals and 
other guidance provide adequate preparation for applicants to 
be able to use those innovative materials in projects? Should 
that be a continuing focus to try to make sure that the 
standards that have been in place for concrete and steel and 
other more traditional materials are updated to include 
innovative and composite materials?
    Ms. Swallow. Senator Whitehouse, that is a fantastic 
question. Indeed, we do agree that we need to provide for all 
agencies to incorporate the use of new materials. We can't 
continue to design projects the way we did 50 years. We can't 
afford to do that, and the projects won't be sustainable, so we 
need to figure out ways to incentivize development of these new 
materials, their use of the materials, and ensure that they do 
get into our projects.
    Senator Whitehouse. And out of date engineering manuals and 
other guidance create a lag that inhibits the implementation of 
projects that include those new materials, correct?
    Ms. Swallow. It is natural that the standards and 
guidelines do have a bit of a lag, but the intention there is 
to ensure that we are protecting public safety and not 
implementing them too soon, so we need to make sure that we 
both incentivize the use of them, but also continue to ensure 
that they are being safely used.
    Senator Whitehouse. Well, I appreciate that.
    In Rhode Island we have a lot of small communities, and I 
see Mr. Bullock here representing another coastal State with 
small communities. I have noted that the Army Corps' Flood and 
Coastal Storm Damage Reduction Account in the fiscal year 2019 
budget is funded at $1.49 billion. Of that $1.49 billion, we 
have found only $40 million marked for coastal projects. Even 
in the Flood and Coastal Storm Damage Reduction Account, the 
ratio of upland and inland projects to coastal projects appears 
to be about 37:1, which does not seem appropriate under 
virtually any circumstances, but particularly not appropriate 
when we look at the type of coastal flooding, coastal storm, 
lousy FEMA mapping, and other challenges that small communities 
face.
    What is your comment on that?
    Mr. Bullock. Senator, I am going to not tell you how to do 
your job, but I am going to yield to my fellow Delawarean to my 
left who is the expert in this.
    Senator Whitehouse. I accept that referral.
    [Laughter.]
    Senator Whitehouse. Mr. Pratt.
    Mr. Pratt. And I am now retired from the State of Delaware, 
but 38 years in the business, and that is why my Secretary of 
State is referring over to me.
    From Delaware's standpoint and from the national 
standpoint, we certainly see the problem with that discrepancy 
that small investment made to the coastline. I think to answer 
that, I would point out something I have said to this Committee 
in the past. For point of illustration, how far off we are in 
the investment, and I use the fact that we are depending, in my 
mind, anyway, we are depending too much anymore on 
supplementals to fund coastal restoration work. We are 
responding, and I certainly see a number of Senators----
    Senator Whitehouse. So your recommendation would be that we 
need to make a stronger focus on coastal restoration work right 
into the WRDA program?
    Mr. Pratt. Sixty-five billion dollars was spent for 
Hurricane Sandy supplemental, $65 billion. And of that, let's 
say $20 billion of that was probably very much directly coastal 
related in the affected States. We take that number and we say 
$20 billion over one storm and maybe 25 percent of the coasts 
of the United States. If we had spent that money for 20 years 
over the entire Nation, that is $1 billion investment a year to 
avoid the damages and to avoid the suffering that occurred 
before we had to pay that cost of recovery.
    Senator Whitehouse. In my final seconds, let me make the 
point that Rhode Island has not applied under the WIFIA program 
for some time now. One of the reasons is that the Rhode Island 
infrastructure bank is actually easier to work with; doesn't 
require such a paperwork load up front and that, for smaller 
projects and for smaller communities, the WIFIA project really 
is not all that useful. So, I hope that as we continue to work 
our way forward, we can find ways to make the WIFIA program 
more amenable to smaller projects and smaller communities, 
because a great number of our coastal communities are smaller 
communities; we are not all New York City.
    Thank you.
    [Laughter.]
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Gillibrand. So sad for you.
    [Laughter.]
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you for being here.
    And thank you and the Ranking Member for working so well 
together on this.
    This is really a question for anybody who wants to handle 
this on the panel. For many of our constituents, how the Corps 
actually deploys their funds and rehabilitates our waterway 
infrastructure is confusing and ultimately a disappointing 
maze. First you have a study that is authorized by Congress; 
then the Corps has to complete the study, often soliciting 
funds from their local stakeholders; then Congress authorizes 
the study and appropriates funds to the Corps for construction 
or operation and maintenance. Still, sometimes after all of 
this has occurred, nothing really happens, and usually the 
refrain from the Corps is that the project failed to pass 
muster under the OMB's benefit-cost ratio. That standard is 
$2.50 in benefits for every $1.00 in Federal investment, with a 
discount rate of 7 percent for future or long-term benefits.
    Projects are having trouble meeting these threshold, and we 
are left to explain to our constituents that their project, no 
matter how important to the local community, can't proceed, 
despite all of the Federal reviews.
    So, I was wondering, do any of you have experiences that 
you would like to share in which otherwise worthwhile projects 
have been put on indefinite hold because of this benefit-cost 
ratio issue?
    OK, so maybe that is not a problem.
    Yes, sir, Mr. Riley.
    Mr. Riley. Senator Capito, I can only do perspective from 
some of the projects in my neighborhood. When you use that 
standard without looking out way into the future, there is much 
of the projects in our region that would have never been built 
at that time, so, yes, that is a huge one. I can tell you from 
personal experience, when you get the Army Corps of Engineers 
put their foot down on a project you have been working on for 
10 years or longer, maybe decades beyond that, that will crush 
you right there in a local led effort.
    Senator Capito. Right. Well, I think this bill tries to 
help answer that question by letting districts regionalize 
their projects so they become larger.
    Mr. Pratt.
    Mr. Pratt. Just another perspective from the State of 
Delaware. I think there are 19 or 20 federally authorized 
navigation channels in the State, only 3 of which are being 
maintained. It is a different metric for determining how 
waterways are maintained, which ones are actually supported 
through dredging and surveying work. We have had channel 
markers removed within our State because the Coast Guard can't 
verify the port channel is there anymore. It is a different 
metric, but it gets to the same point, that the rationalization 
of what projects we do has to be examined. I think this is why 
the National Academy Study is so important; it should get into 
that way in which the Corps does its business, see how we can 
modernize it, see how we can bring it forward and better serve 
the Nation.
    Senator Capito. Good. All right, thank you.
    Mr. Sternberg, in your testimony you highlighted, in 
Section 5010, which contains the text of the Water Workforce 
Investment bill which Senator Booker and I have worked on. This 
provision establishes an EPA grant program to spur education, 
job training, and apprenticeship for careers.
    You mentioned this in your opening statement, but for a 
rural State like West Virginia, this is a huge challenge. Many 
of our folks that have been maintaining our water systems were 
under the old system and are retiring, and trying to find new 
and younger talent has been an issue for us. Could you speak to 
that, please?
    Mr. Sternberg. Yes. Thank you, Senator. National Rural 
Water actually started working with the Workforce Development 
Department of Labor on apprenticeships for the water industry, 
and this last year we just kicked it off, and each State is 
working through that process, but it is the same problem in our 
State, aging work force. We have an aging infrastructure for 
utilities, but we also have an aging work force as far as 
knowledgeable individuals that have run water and wastewater 
systems for years, and getting new, young blood to come in to 
the industry.
    One of the reasons I still believe is the pay scale is not 
where it should be. It is the most important thing we do every 
day. Everybody has to have good, safe drinking water. Everybody 
has to have a process for disposal of your stuff. I mean, it 
does not make sense to me. But I think with this it ignites and 
starts the process, and with this in the bill I think it is an 
opportunity for every State to start expanding out and going 
into the work force and bringing new people in.
    Senator Capito. Well, I have a small community in West 
Virginia where the person who was charged with keeping the 
water system running and providing the clean drinking water 
also was the person who checked the parking meters, and you 
know, took the notes at the city council meeting.
    Mr. Sternberg. The dog catcher and everything.
    Senator Capito. The dog catcher and everything. And the way 
the requirements that we have now, you can't do that; you have 
to have the professionalization that goes along with this, 
which can be very complicated, so thank you very much.
    Mr. Sternberg. Thank you for the addition in this bill.
    Senator Capito. Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman and Mr. Ranking 
Member, for holding this hearing, and for your bipartisan 
leadership in drafting this bill, the America's Water 
Infrastructure Act of 2018.
    New York, as you know, has a wide range of water resource 
needs. We are a Great Lakes State and a coastal State. We have 
hundreds of dams and levees that are critical to communities 
across the State which must be properly maintained to ensure 
those communities are protected from flooding, and we face the 
threat of aquatic invasive species that, if unchecked, decimate 
fisheries and result in major economic and environmental 
damage.
    I am pleased that this bill includes a number of our very 
important priorities. This bill includes the Long Island Sound 
Restoration Stewardship Act, which reauthorizes and reforms 
Federal programs that are essential to reducing pollution and 
protecting the Long Island Sound Watershed. It also authorizes 
the Great Lakes Coastal Resiliency Study to protect communities 
like those that are experiencing devastating flooding last 
summer along Lake Ontario. I am also grateful that the bill 
will utilize the study for Chautauqua Lake Project to protect 
communities in Westchester from flood risk.
    With that, just a few questions.
    For Anthony Pratt, I appreciate in your testimony you 
mentioned the Great Lake Coastal Resiliency Study, which is a 
priority of mine and something that is so important for 
communities across central and western New York. As you may be 
aware, last summer we experienced record flooding along the 
shorelines of Lake Ontario and the St. Lawrence River, 
resulting in a Federal disaster declaration due to the millions 
of dollars in damage of both property and infrastructure.
    Can you speak a little more about why it is important to 
conduct comprehensive regional resiliency studies like the 
North Atlantic Study conducted after Superstorm Sandy?
    Mr. Pratt. Yes, Senator. Thank you for that question; it is 
one that I mentioned briefly a few minutes ago that we support, 
ASBPA.
    Looking at the Nation as a whole, we have a series of 
studies that are done, North Atlantic Study, South Atlantic 
Study. There are two coastal studies in the Gulf Coast, and now 
the Great Lakes coming onboard, which brings us to a point 
where the Continental United States is going to have fairly 
comprehensive plans, without the West Coast engaged yet, on 
resiliency, and there are a number of forces at work for each 
one of those units or sections that is very unique.
    But developing a strategic plan going forward so we can 
spend the money to mitigate prior to the disaster, save the 
supplemental dollars that are being spent at far to a greater 
rate, as you understand from the State of New York, $65 billion 
spent for recovery from Hurricane Sandy. That was after the 
destruction of property, after the human suffering occurs. 
Let's avoid the human suffering, let's avoid the disruption; 
let's get out in front of it and invest in that infrastructure 
that is going to protect the infrastructure that is behind it, 
and I think the coastal infrastructure is very important in 
that role.
    Senator Gillibrand. Do you see any projects the Corps could 
be looking at to improve the resiliency of coastal and Great 
Lake communities? And a follow on, in your view, what are the 
barriers that hold the Army Corps back from investing more in 
natural infrastructure projects like wetlands restoration, and 
what more should Congress be doing to address those barriers?
    Mr. Pratt. Well, I think this bill addresses that pretty 
well. In looking at the full suite of benefits across business 
lines that accrue from the investment made, looking at green 
infrastructure and nature-based infrastructure. In the Great 
Lakes region there is a lot of bluff erosion because beaches at 
the bottom of the bluffs are eroding. Great Lakes levels 
fluctuate over time because of a difference in weather 
patterns.
    There are a variety of different forces at work there, but 
that said, if we can invest in green infrastructure to avoid 
the damages up front, that is good, and the suite of benefits 
that accrue, by enumerating the solutions that have multiple 
benefits, I think the benefit-cost analysis is the area where 
we are not doing a good job on the benefit side, what comes 
from that investment. There would be many more values achieved 
through the investment of nature-based protection than we are 
counting, and that is an important step forward.
    Senator Gillibrand. Thank you, Mr. Pratt.
    Ms. Swallow, addressing the massive backlog of dam and 
levee safety projects is another important priority. We have 
approximately 400 high hazard dams in New York. What are the 
consequences if we fail to take this problem seriously and 
allow aging dams and levees to continue to fall into disrepair, 
and how can the Corps provide better assistance to States and 
localities that are responsible for maintaining this 
infrastructure, but are faced with strained budgets and limited 
funds?
    Ms. Swallow. Senator Gillibrand, that is a great question. 
What are the consequences? The consequences are devastating if 
we fail to maintain our levees and our dams. The challenge with 
that is that we are not even aware of the full spectrum of 
levees that we have. We are underfunding our National Levee 
Safety program. We are only spending $5 million to $10 million 
a year, where it is authorized at $79 million a year. And some 
of those authorized funds actually would go to the repair of 
those levees. So, first we have to identify their locations. 
Once we know their locations and their condition, then we can 
start to repair them.
    In terms of high hazard dams, the number of high hazard 
dams is increasing annually as more and more people continue to 
move into areas that are protected by these dams. Roughly 17 
percent of our 90,000 dams today are high hazard, and should 
that dam fail, it will result in a loss of life, so the 
consequences are devastating.
    Anything the Corps can do to help increase that investment 
in dams and levees, but really, it ultimately comes down to 
ensuring that we are appropriating the funds that are already 
authorized and making sure that we get those funds to the 
projects.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Gillibrand.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have three areas, as I listened to the opening statements 
and heard the responses to questions, that I think could use a 
little more elaboration.
    Mr. Sternberg, I wanted to tell you you have a real 
champion of rural water in Senator Boozman. He is one that is 
always on that ball, and we agree with the problems. After all, 
Oklahoma and Arkansas are both rural areas. We are both 
impacted by how we do treat that.
    What I would like to have you do is anything you want to 
add to how this bill is going to be helpful specifically to the 
rural areas, give you the chance now to elaborate on that, 
should you want to.
    Mr. Sternberg. Thank you, Senator Inhofe. We appreciate all 
your work from Oklahoma for rural water. My counterpart, James 
Gammell, talks about you all the time, so thank you for the 
opportunity to add some additional stuff.
    My last comment on this bill would be, again, 14,500 
wastewater systems throughout this Nation in every State 
represent 10,000 population and under. They are the ones that 
rely on rural water technical assistance in the field, 
troubleshooting problems that they have because, again, they 
don't have the expertise as larger systems where they have----
    Senator Inhofe. We are the resources. I know it is not any 
different in Arkansas than it is in Oklahoma, and when this 
hits them, they have no way of responding to it as it might in 
a major metropolitan area.
    Mr. Sternberg. Exactly. So, the technical assistance 
funding for the clean water Circuit Riders is essential. It is 
essential. The Safe Drinking Water Act has the Circuit Rider 
technical assistance provision of $12.7 million. That is the 
issue that I have; EPA is a stumbling block because of how they 
have appropriated that money and put it out.
    Senator Inhofe. OK. That is an excellent statement. I just 
want to make sure we had everything in the record that referred 
to that.
    Mr. Sternberg. I have a letter that the Senators here sent 
to EPA requesting that they----
    Senator Inhofe. I think it would be appropriate to ask 
unanimous consent that that letter be made a part of the record 
at this point.
    Senator Barrasso. Without objection.
    Mr. Sternberg. Thank you.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. Ms. Swallow, really, 150,000 civil 
engineers? Did I hear you right?
    Ms. Swallow. Yes.
    Senator Inhofe. And you are in charge of all of them?
    Ms. Swallow. I am not so sure I am in charge. I represent 
them.
    Senator Inhofe. Well, in your statement, toward the latter 
part of your statement, you did address the SRF WIN Act, and I 
just want to remind everyone that not only myself, but also 
Chairman Barrasso is with Senator Boozman on this legislation.
    Now, from your very unique position, is there anything you 
have not said concerning that that you would like to get in the 
record? You are the head of the civil engineers. What do you 
think?
    Ms. Swallow. Thank you for the opportunity. We are really 
excited that this bill is being advanced in a bipartisan 
manner. We are excited to hear that you are working on the SRF 
WIN Act. Ultimately, when we talk about our infrastructure, 
anything we can do to increase the investment, that is the 
biggest challenge, is increasing the investment. We are 
woefully underfunding it.
    Senator Inhofe. OK. Well, I appreciate that very much.
    Mr. Riley, you responded to Chairman Barrasso's statement 
when we talked about local participation. You know, there are 
some people who really don't think a good decision is made 
unless it is made in Washington, and there are those of us who 
believe, who have served in the private sector, as well as the 
public sector, at local levels, we don't agree with that.
    In your testimony you say the best decisions on water 
issues happen at the State and local level, and I would agree 
with that. The decisions made in Montana are just not the same 
as they would be made in my State of Oklahoma, in eastern 
Oklahoma versus western Oklahoma. That is why local decisions 
in control are so important.
    Is there anything you would like to expand on the 
advantages of the local participation that you have not yet?
    Mr. Riley. Thank you, Senator Inhofe. I guess the proof is 
in the pudding, in fact, the local effort. That means that we 
have spent our money before we come to see you, and it is our 
idea; and I believe that sells it in itself, that we have come 
to you, we have spent a lot of money. In our State I have 
worked on rural water tribal-State irrigation projects. We are 
coming to you; that means that it has already been originated 
on our side of the ball, looking for help from you.
    Senator Inhofe. That is a great reminder, and we will all 
remember that. Thank you very much.
    And thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. Mr. Chairman, I received a number of 
letters of support from various outside shareholders and 
stakeholders. I would like to enter these into the record. They 
include the League of Conservation Voters, National Wildlife 
Federation, Audubon, American Rivers, American Shore and Beach 
Preservation Association, National Association of Realtors, the 
Environmental Defense Fund.
    I would just ask unanimous consent that those letters of 
support be entered into the record.
    Senator Barrasso. Without objection.
    Senator Carper. Thank you.
    [The referenced information was not received at time of 
print.]
    Senator Carper. I just want to say this has been a great 
hearing. I mentioned to the Chairman. On issues, and usually 
water resources issues, we are very good at working together, 
and frankly on other issues as well. Some of our issues that we 
discuss are more contentious, as you might imagine, but this is 
just a great example of where we can, I think, make progress by 
setting aside our differences and focusing on what Mike Enzi, 
the Senator from Wyoming likes to say--and the Chairman has 
mentioned this before--but Mike Enzi likes to say the reason 
why he and Ted Kennedy used to get along so well on issues 
before the Health, Education, Labor, and Pensions Commission 
when Ted Kennedy was senior Democrat, and Mike Enzi, a very 
conservative Republican, was the Republican leader on the 
Committee, I used to say to Mike Enzi how do you guys get so 
much done, and he once said to me, he said, Ted and I agree on 
about 80 percent of the stuff, and we disagree on about 20 
percent of the stuff. He said, what we do in the Health, 
Education, Labor, and Pension Committee is we focus on the 80 
percent where we agree, and we set aside that 20 percent to 
another day.
    And I think what we are doing today is focusing on the 80 
percent, and you are helping us in this, and we are deeply 
grateful.
    I want to ask the first question, if I could, of Secretary 
Bullock, if I could, with respect to ports and then the Corps' 
budget in that regard. By 2020 I am told that the total volume 
of cargo shipped by water into and out of this country is 
expected to be double that of 2001. Think about that. By 2020 
expect the cargo shipped into our country and out of our 
country to double by 2021.
    As the ships continue to get bigger, we see more congestion 
at the docks, and we see larger ships require deeper navigation 
channels. We are deepening right now the channel that goes from 
the Atlantic Ocean through the Delaware Bay, Delaware River up 
into New Jersey and Pennsylvania. Only a few ports have that 
kind of deep navigational channels.
    How do we ensure that ports can effectively distribute and 
receive goods as ships continue to grow in size? How do we 
ensure that ports can effectively distribute and receive goods 
as ships continue to grow in size?
    Secretary Bullock, in your opinion, how does the America's 
Water Infrastructure Act of 2018 bill before us support our 
ports' needs; not just in Delaware, but beyond, well beyond? 
Thank you.
    Mr. Bullock. I appreciate the question, Senator. So, I 
would start out by sort of reiterating what you said earlier 
about partnerships and figuring out how to work together on the 
80 percent where you can agree, because I think that is the key 
to success here.
    We know that our need for port capacity is going to 
continue to grow, and probably grow, hopefully grow 
significantly over the course of the next 10 or 20 years. As 
has been said here today, the role of the Corps of Engineers in 
all that is just critical.
    I will take the example that we are involved in right now 
as indicative of that. Even before we decided that we were 
going to try to build a new port, and we are trying to build, 
as you know, a new facility not too far from where you and I 
live on the Delaware River, and it is about a $600 million to 
$750 million project to build this new terminal. Even before we 
made the full decision that we were going to go ahead with 
that, we had to start working with the Corps of Engineers to 
determine whether or not the site was going to be suitable for 
that. And even before we bought the piece of property, in fact, 
we had environmental studies underway to determine whether the 
property was suitable for dredging, for example.
    And now that we are a couple years into it, we are already 
1 year into our partnership with the Corps of Engineers in the 
dredging piece of that, which is supposed to be, I think a 2- 
or 3-year process all told, and who knows what happens in 
between.
    So, as has been said several times by this panel in a 
number of different contexts, a well supported, well funded, 
well devised plan by the Corps of Engineers is just absolutely 
critical to us being successful.
    If we can get that port up and running by 2024, 2025, that 
is a pretty good accomplishment, right, to build a new port. It 
is also 6 or 7 years ago, which strikes many people as being a 
long time, but that is how long it takes to do all of this 
right now.
    To the extent that we get a well resourced Corps of 
Engineers, we can minimize that amount of time, at least from 
the regulatory perspective, in getting the approvals that we 
need, so that is critical.
    To the other part of your question, about the ships getting 
larger and the changing nature of the businesses as it relates 
to that, we know that ships coming up the Delaware River are 
only going to be so large, and because of the deepening of the 
channel, we can now handle larger ships. We can't handle the 
largest ships, but it is a sort of spoke and wheel business 
practice on the part of most of our customers, anyway, so that 
is not going to hold us back.
    Making sure that channel deepening is completed, making 
sure that it is then maintained after it is completed, making 
sure that we accommodate things like where we put dredge 
spoils, for example, which is going to be a very big issue for 
us, maybe not in the short term, but certainly is going to be 
in the long term, these are the things that will allow us to 
maintain our commercial development and will make us successful 
in the longer term.
    So, the overall message, I think, from me, and I heard it 
from others, I know we all have our budget constraints, we 
certainly do in the State of Delaware, but this is not a place 
to cheat. This is not a place to cheat the budget. This is a 
place where not only will you facilitate things like what we 
are doing in Delaware, but you will be doing the exact same 
thing around the country; you will grow jobs, you will grow the 
kinds of jobs that we need to be developing in our country 
right now, blue collar jobs that we so desperately need to 
increase, and you are going to promote more economic 
development in our country.
    Senator Carper. Thank you for an excellent and thoughtful 
response.
    Mr. Chairman, I have another question to ask of Tony, but 
let me----
    Senator Barrasso. Please, go right ahead.
    Senator Carper. Are you sure?
    President Pratt, as the President of the American Shore and 
Beach Preservation Association with a long, rich history with 
coastal issues, and as a former non-Federal project manager for 
the State of Delaware, you know the importance of pairing 
natural infrastructure improvements with engineered flood 
control solutions and how they can complement each other. How 
can gray and green infrastructure work together? How can gray 
and green infrastructure work together? In what ways does the 
bill before us actually support that hope, that aspiration? 
Please.
    Mr. Pratt. Thank you. Good question. Gray infrastructure at 
the coastline refers to the kind of practices that were done in 
the 1930s, 1940s, 1950s, perhaps, where seawalls were built, 
bulkheads were constructed, breakwaters were constructed and 
became a way of trying to tame the forces of nature that were 
impacting the coasts.
    Over time, we began to look at it from a broader 
perspective. If you stop and think just for a minute what 
attracts so many Americans to the coasts, it is not a wall and 
a sea on the other side of it; it is a beach, it is a dune, it 
is a wetland, and those beaches, dunes, wetlands, the vistas 
that they provide for people, the recreational benefits, but 
also the protection of estuaries, which is vitally important. 
We have seen the collapse of protection in the Delta in 
Louisiana, for instance. The Chandeleur Islands and their 
collapse created devastation of wetlands, losses of wetlands, 
more exposure of New Orleans to coastal storms.
    So, looking at systems that bring back those natural 
features is why we went to the coast; we didn't congregate at 
the coast because it is a solid wall, and then there is sea on 
the other side. Those amenities, those resource values are very 
important to people, so bringing those back into the fold, they 
can perform very well. We think in our minds about the Dutch 
and the way they protect country, which is below sea level. I 
used to think there were probably giant walls everywhere. I 
have seen photographs--I have not been to Holland to examine 
them, but I have seen photographs, and their protection, their 
dikes, as they are called, are dunes and beaches, massive dunes 
and beaches that are providing recreational amenities, natural 
resource amenities, but also do the job of keeping the sea 
back.
    So, combining the two I think is a way forward that 
accomplishes many goals, and I think the National Academy Study 
and the GAO study looking at the benefit-cost analysis should 
pick up on some of those values that come from that investment.
    Senator Carper. Thank you.
    Would you just mention what is going on at the Prime Hook 
National Wildlife Refuge with respect to transforming a 
freshwater marsh into a saltwater marsh in order to sort of 
raise it up and really to save it and preserve it?
    Mr. Pratt. Certainly. The National Wildlife Refuge at Prime 
Hook is one that is a Delaware Bay fronting resource. For a 
number of years, because of mismanagement of the streams and 
creeks that went through that wetland system back in the early 
part of the last century, Phragmites took over, dominated the 
coastline. There was a beach, and there were seas of 
Phragmites, the tall reed that we see all over Delaware.
    To reverse that non-productive land, the Department of 
Interior, U.S. Fish and Wildlife Service, created impounded 
freshwater wetlands back in the 1960s and 1970s. Those provided 
tremendous benefit to migratory waterfowl for quite a number of 
years, until the beach and dune system broke down and seawater 
got into that system and created a tidal anomaly that didn't 
allow those wetlands to flow out.
    Bottom line is that, through Hurricane Sandy relief, $38 
million was appropriated to the Department of Interior to 
rebuild the beach and dune, and to create a wetland system that 
was based on tides again. Again, entirely valued by benefit-
cost analysis was strictly on the environmental improvements 
that would come, and the benefit would provide to migratory 
waterfowl, which is the mission of the U.S. Fish and Wildlife 
Service.
    So, the values are there. They are very high values, and 
Department of Interior looked at it closely and said, yes, it 
is very much in our favor to go ahead and make that investment, 
$38 million to restore a complete system to its original 
natural function.
    Senator Carper. Thank you.
    Mr. Chairman, let me go back, but if I have a question I 
would like to ask later on, a very short question of Ms. 
Swallow.
    Senator Barrasso. No, please go on.
    Senator Carper. I was sitting next to Tom Udall in a 
meeting earlier today, and I am sure he would want to convey 
his warmest regards and his thanks for all the help you 
provided when you were a member of his staff.
    Ms. Swallow, do you believe that the Corps' current 
budgetary funding is sufficient to accomplish its mission for 
inland waterways, and how does this bill assist on this front?
    Ms. Swallow. Thank you for the question, Senator Carper. Is 
the budget sufficient? No, it is not. We have infrastructure on 
our inland waterway systems that dates back not just decades, 
but in some cases, as I mentioned earlier, a century, and that 
infrastructure is struggling to meet the needs of our Nation.
    If we don't fully restore our inland waterway system, we 
will see the impact of that product, instead of being shipped 
on the inland waterways, it will hit the rest of our surface 
transportation system and cost us a lot more not just in terms 
of the cost for the producers who are trying to get their 
products to market, but will cost every single American citizen 
as we buy that product, so we need to find a way to further 
improve the investment in our inland waterway network.
    One of the things that we really like about this bill is 
that it enables the Corps to charge and collect fees on their 
facilities that they can then use to leverage the WIFIA 
program. We will not attract private investment unless they 
know that they can see a return on their investment, so that is 
one of the steps that we are excited to see in this bill, is it 
allows the Corps to start collecting and retaining fees for 
operations and maintenance.
    We, of course, like that the bill is reauthorizing WIFIA 
and the dam and levee safety programs as well.
    Senator Carper. Thanks.
    When we say dam safety program, I always think is that with 
the ``n''.
    [Laughter.]
    Senator Carper. We will note here for the record today it 
is just d-a-m.
    This has been great. Mr. Chairman, thank you again for 
pulling this all together and for our witnesses that are here 
from Delaware and other places far and wide.
    Again, I just want to say to our staffs, deeply grateful 
for the great work that is being done not in the light of day 
so much, certainly not here under these lights, but very good 
work is being done, and we know we have a lot more that needs 
to be done, so we look forward to that journey. Thanks so much.
    Senator Barrasso. Well, thank you very much, Senator 
Carper. You were kind enough to mention so many of the staff. I 
think Richard's name was left out, so, Richard, we apologize, 
but are grateful for your great work.
    Senator Carper. I would like to say something about 
Richard.
    [Laughter.]
    Senator Barrasso. If there are no more questions, members 
may submit follow up questions for the record, so the hearing 
record is going to be open for 2 weeks.
    I want to thank all of the witnesses. Thanks so much for 
your insight, for your time, for your testimony.
    Senator Carper.
    Senator Carper. Just an observation. I mentioned earlier 
that Secretary Bullock was once my chief of staff when I was 
Governor, and later for a while as a United States Senator, and 
he was succeeded as chief of staff by Jonathan Jones, who is 
sitting immediately behind him. And immediately behind Jonathan 
Jones is a fellow who looks very much like Alan Hoffman, who 
used to be chief of staff to Joe Biden as Senator and as Vice 
President. I don't know who the rest of you are.
    [Laughter.]
    Senator Barrasso. Would people like to stand and introduce 
themselves? We can work our way through the crowd.
    Senator Carper. This is one heck of a Delaware lineup right 
here. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Thanks to each and every one of you who have attended, as 
well as those who have participated by testifying.
    With that, the hearing is adjourned.
    [Whereupon, at 11:45 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
